ao
I

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ries contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 weww.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1334

BRADLEY BOARDMAN,
a Washington individual Provider, et al.,
Petitioners,
v.
JAY R. INSLEE,
Governor of the State of Washington, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF GOLDWATER
INSTITUTE AND ILLINOIS POLICY INSTITUTE AS AMICI CURIAE SUPPORTING
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 4290 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of April, 2021.
i am duly authorized under the laws of the State of Nebraska to administer oaths.

A GERERAL NOTARY-State of Nebraska ( } dit & Chi
RENEE J, GOSS 0 . a

My Comm. Exp. September 8, 2023
Notary Public / Affiant 40936

 
